                                        OFFICE OF INSPECTOR GENERAL
                                                               MEMORANDUM




DATE:         December 22, 2003

TO:           Chairman

FROM:         Inspector General

SUBJECT:      Report on Audit of the E-rate Program at St. Matthew Lutheran School

The Office of Inspector General (OIG) has completed an audit at St. Matthew Lutheran
School (SMLS), a beneficiary of the Universal Service Fund (USF). A copy of our audit
report no. 02-AUD-02-04-07, entitled “Report on Audit of the E-rate Program at St.
Matthew Lutheran School” is attached. The objective of this audit was to assess the
beneficiary’s compliance with the rules and requirements of the USF program and to
identify program areas which may need improvement.

We concluded that SMLS was not compliant with the requirements of the program for
funding years 1999 and 2000. The audit resulted in ten (10) specific findings and
$55,639 identified as potential fund recoveries. However, in light of the multitude of
findings and systemic noncompliance with commission rules and program requirements,
we recommend that the Wireline Competition Bureau direct the Universal Service
Administrative Company (USAC) to recover the full amount of $136,593 disbursed on
behalf of SMLS in funding years 1999 and 2000 ($118,449 + $18,144). In addition, we
recommend that the Wireline Competition Bureau take steps to ensure that funding
requests are adequately reviewed in accordance with existing program rules and
implementing procedures to ensure that funding requests associated with such systemic
noncompliance with program rules and regulations are not approved. Further, we
recommend that the Wireline Competition Bureau review those program rules and
implementing procedures governing the areas of noncompliance cited in this report to
ensure that those program rules and implementing procedures are adequate to protect the
interests of the fund.

We held an exit conference on March 13, 2002 with the beneficiary’s representatives, and
requested their comments on the results of the audit. They generally agreed with the
results of the audit, however, they did not concur that the findings indicated systemic
noncompliance with program requirements.
We provided management with a copy of our draft audit report, dated November 25,
2003, and requested they provide comments on their concurrence with the findings of the
audit. In a response dated December 11, 2003, the Wireline Competition Bureau (WCB)
indicated that they did not fully concur with all ten of the audit findings but that they did
concur with our three audit recommendations. WCB’s comments and audit responses are
included in the applicable sections of the report and their response is included in its
entirety in the Appendix to the report.

If you have any questions, please contact me or Thomas Cline, Assistant Inspector
General for Audits, at (202) 418-7890.




                                              H. Walker Feaster III

Attachment

Copy furnished:

Mr. Thomas Manigualt, Technical Director, St. Matthew Lutheran School
George McDonald, Vice President, Schools and Libraries Division, USAC
Chief, Wireline Competition Bureau
Performance Evaluation and Records Management, FCC Office of Managing Director
FEDERAL COMMUNICATIONS
      COMMISSION
  OFFICE OF INSPECTOR GENERAL




   Report on Audit of the E-Rate Program at
         St. Matthew Lutheran School

          Report No. 02-AUD-02-04-07
              December 22, 2003
Report on Audit of the E-rate Program at St. Matthew Lutheran School



                                     Table of Contents


                                                                       Page


EXECUTIVE SUMMARY                                                        1


BACKGROUND INFORMATION                                                   2


AUDIT OBJECTIVES AND SCOPE                                               3


AUDIT FINDINGS AND RECOMMENDATIONS                                       4


APPENDIX – Management Response
Report on Audit of the E-rate Program at St. Matthew Lutheran School


EXECUTIVE SUMMARY

On May 7, 1997, the FCC adopted a Universal Service Order implementing the
Telecommunications Act of 1996. Included in this Order was the Schools and Libraries
Support Mechanism of the USF (hereinafter known as the E-rate program) in which all
eligible schools and libraries can receive discounts from the USF on eligible
communication services ranging from 20 to 90 percent, depending on economic need
and location. The OIG has designed a program of audit oversight to provide FCC
management with a reasonable level of assurance that beneficiaries are complying with
program rules and that program controls are adequate to prevent fraud, waste and
abuse.

The OIG has completed an audit of St. Matthew Lutheran School (SMLS). The
objective of this audit was to assess the beneficiary’s compliance with the rules and
regulations of the USF program and to identify areas in which to improve the program.
St. Matthew Lutheran School (SMLS) is a small religious/private school located in the
Washington Heights Section of New York City. SMLS teaches pre-kindergarten to 8th
grade classes. Based on its application filed with the Schools and Libraries Division
(SLD) of the Universal Service Administrative Company (USAC), SMLS reported that
it had 116 students in FY 1999 and was approved and received funding at an urban
discount rate of 90% for FY 1999 and 80% for FY 2000.The period of our audit was for
Funding Year (FY) 1999 covering July 1, 1999 to June 30, 2000. However, due to
numerous findings of noncompliance in FY 1999 we expanded our audit to include FY
2000 covering July 1, 2000 to June 30, 2001.

For FY 1999 SMLS had an approved commitment of $125,631 of which $118,449 or
94% was approved for installation and maintenance of internal connections and Internet
access. For FY 1999 SLD disbursed $118, 449 for internal connections and Internet
access. For FY 2000 SMLS had an approved commitment of $28,701 of which
$18,144 or 63% was approved for Internet access. SLD disbursed $18,144 for Internet
access. Funding for internal connections for FY 2000 were denied because of the E-
rate funding cap which funded schools with greater than an 81% discount rate.

Our audit of the use of E-rate funds at SMLS disclosed that the beneficiary was not
compliant with the requirements of the program for funding years 1999 and 2000. The
audit resulted in ten (10) specific findings and in $55,639 identified as potential fund
recoveries. However, in light of the multitude of findings and systemic noncompliance
with commission rules and program requirements we recommend that the Wireline
Competition Bureau direct USAC to recover the full amount of $136,593 disbursed on
behalf of SMLS in funding years 1999 and 2000 ($118,449 + $18,144). In addition, we
recommend that the Wireline Competition Bureau take steps to ensure that funding
requests are adequately reviewed in accordance with existing program rules and
implementing procedures to ensure that funding requests associated with such systemic
noncompliance with program rules and regulations are not approved. Further, we
recommend that the Wireline Competition Bureau review those program rules and

                                           1
Report on Audit of the E-rate Program at St. Matthew Lutheran School


implementing procedures governing the areas of noncompliance cited in this report to
ensure that those program rules and implementing procedures are adequate to protect
the interests of the fund.

We held an exit conference on March 13, 2002 with the beneficiary’s representative,
and requested their comments on the results of the audit. They generally agreed with
the results of the audit, however; they did not concur that the findings indicated
systemic noncompliance with program requirements.

We provided management with a copy of our draft audit report, dated November 25,
2003, and requested they provide comments on their concurrence with the findings of
the audit. In a response dated December 11, 2003, the Wireline Competition Bureau
(WCB) indicated that they did not fully concur with all ten of the audit findings but that
they did concur with our three audit recommendations. WCB’s comments and audit
responses are included in the applicable sections of the report and their response is
included in its entirety in the Appendix to the report.

BACKGROUND INFORMATION

In accordance with the Inspector General Act of 1978, as amended, the Office of
Inspector General (OIG) at the Federal Communications Commission (FCC) has
oversight responsibilities for the Universal Service Fund (USF) as a federal program of
the FCC. The USF provides affordable access to specified communications services for
schools, libraries, rural health care providers, low-income consumers and companies
serving high-cost areas. On May 7, 1997, the FCC adopted a Universal Service Order
implementing the Telecommunications Act of 1996. Included in this Order was the
Schools and Libraries Funding Mechanism of the USF (hereinafter known as the E-rate
program) in which all eligible schools and libraries can receive discounts from the USF
on eligible communication services ranging from 20 to 90 percent, depending on
economic need and location. The Universal Service Administrative Company (USAC)
is responsible for administering the Fund under the direction of the FCC’s Wireline
Competition Bureau (WCB). The Schools and Libraries Division (SLD) of USAC
administers the E-rate program.

USF discounts can be applied to three kinds of services and products:

•   Telecommunication services, including basic phone service.
•   Internet access.
•   Internal connections, including wiring and network equipment needed to bring
    information directly to classrooms or library patrons.

St. Matthew Lutheran School (SMLS) is a small religious/private school located in the
Washington Heights Section (200 Sherman Avenue) of New York City. SMLS teaches
pre-kindergarten to 8th grade classes. Based on its application filed with SLD, SMLS


                                            2
Report on Audit of the E-rate Program at St. Matthew Lutheran School


reported that it had 116 students in FY 1999 and was approved and received funding at
an urban discount rate of 90% for FY 1999 and 80% for FY 2000.

For FY 1999 (July1, 1999 to June 30, 2000) SMLS had an approved commitment of
$125,631 of which $118,449 or 94% was approved for installation and maintenance of
internal connections and Internet access. For FY 1999 SLD disbursed $118, 449 for
internal connections and Internet access. For FY 2000 (July 1, 2000 to June 30, 2001)
SMLS had an approved commitment of $28,701 of which $18,144 or 63% was
approved for Internet access. SLD disbursed $18,144 for Internet access. Funding for
internal connections for FY 2000 were denied because of the E-rate funding cap which
limited funding to schools with greater than an 81% discount rate.

AUDIT OBJECTIVES AND SCOPE

The OIG has designed a program of audit oversight to provide FCC management with a
reasonable level of assurance that beneficiaries are complying with program rules and
that program controls are adequate to prevent fraud, waste and abuse. The objective of
this audit was to assess the beneficiary’s compliance with the rules and regulations of
the USF program and to identify areas in which to improve the program.

The scope of this audit was designed to test beneficiary compliance with program
requirements contained in Title 47, Part 54 of the Code of Federal Regulations (47 CFR
54.500 through 47 CFR 54.520) which provide that:

•   The beneficiary determines its discount percentage by the percentage of their
    student enrollment that is eligible for a free or reduced price lunch under the
    national school lunch program or a federally-approved alternative mechanism.
•   A process has been established to select the most cost effective service provider.
•   Equipment and services are purchased in accordance with applicable procurement
    rules and regulations, and the applicant has paid its portion of the pre-discounted
    costs.
•   Services rendered are consistent with what the beneficiary presented on its
    application for E-rate funds and were installed or provided before the installation
    deadline.
•   The beneficiary has adequate resources, as certified, to use the discounted service
    for which funding has been provided.
•   The beneficiary has an approved technology plan, as certified.

The period of our audit was for Funding Year 2 (FY) covering July 1, 1999 to June 30,
2000. However, due to numerous findings of noncompliance in FY 1999 we expanded
our audit to include FY 2000 covering July 1, 2000 to June 30, 2001.

SMLS is a small religious/private school located in the Washington Heights Section of
New York City. SMLS teaches pre-kindergarten to 8th grade classes. Based on its


                                            3
Report on Audit of the E-rate Program at St. Matthew Lutheran School


application filed with SLD, SMLS reported that had 116 students in FY 1999 was
approved and received funding at an urban discount rate of 90% for FY 1999 and 80%
for FY 2000.

For FY 1999 SMLS had an approved commitment of $125,631 of which $118,449 or
94% was approved for installation and maintenance of internal connections and Internet
access. For FY 1999 SLD disbursed $118, 449 for internal connections and Internet
access. For FY 2000 SMLS had an approved commitment of $28,701 of which
$18,144 or 63% was approved for Internet access. SLD disbursed $18,144 for Internet
access. Funding for internal connections for FY 2000 were denied because of the E-
rate funding cap which limited funding to schools with greater than an 81% discount
rate.

This audit was conducted in accordance with Government Auditing Standards issued by
the Comptroller General of the United States. As part of the scope of our audit, we
obtained an understanding of the specific management controls relevant to the E-rate
program. Because of inherent limitations, a study and evaluation made for the limited
purposes of our audit would not necessarily disclose all material weaknesses in the
control structure. However, we identified significant management weaknesses as
discussed in the Audit Results section of this report and in Finding Numbers 1, 2, 3, 4,
8, 9 and 10.

AUDIT FINDINGS AND RECOMMENDATIONS

Our audit of the use of E-rate funds at SMLS disclosed that the beneficiary was not
compliant with the requirements of the program for funding years 1999 and 2000. The
following findings resulted in noncompliant and/or inappropriate funding
disbursements:

   1. The technology plan was not approved in FYs 1999 and 2000.
   2. An unacceptable methodology was used to calculate the discount percentage,
      resulting in an overpayment of $13,161.
   3. The beneficiary did not budget for the non-discounted portion of the costs.
   4. The beneficiary did not pay the non-discounted portion of the costs.
   5. The service provider billed for T-1 internet access but provided less functional
      integrated services digital network (ISDN) services, resulting in an overpayment
      of $30,642.
   6. Other unauthorized changes were made to the approved system, resulting in a
      system with less functionality and payments of $8,631 for assets purchased and
      not installed.
   7. The service provider billed for recurring maintenance costs that were not
      provided resulting in an overpayment of $3,205.
   8. Contracts with the service provider were signed prior to the allowable date.
   9. There was no documented competitive bidding process.



                                           4
Report on Audit of the E-rate Program at St. Matthew Lutheran School


   10. The beneficiary did not have adequate resources to effectively utilize the
       services provided.

Management response: We concur with the OIG that full recovery of funds – a total
of $136,593 – is warranted. We do not concur with the OIG’s conclusion that the
findings identified only $55,639 in potential fund recoveries. In WCB’s view, findings
1 (lack of an approved technology plan), 3 (failure to budget the non-discounted
portion), 4 (failure to pay the non-discount portion) and 8 (contract signed before the
allowable contract date) are rule violations that support full recovery.

Auditor comments: We have concluded that $55,639 in potential fund recoveries
were identified, but we recommended full recovery of the $136,593 disbursed. Note
that in findings one and eight we state that these findings by themselves indicate that
the funds were inappropriately disbursed and should be fully recovered. The $55,639
represents the dollar amounts associated with findings for which we were able to
monetize the specific cost impact.

AUDIT FINDINGS

Finding 1 of 10 - SMLS Did Not Have an Approved Technology Plan for FY 1999 and
FY 2000.

No technology plan was filed by SMLS for FY 1999. The FCC Form 486 (Receipt of
Service Confirmation Form) filed by SMLS on February 20, 2000, for the Funding
Request Numbers (FRNs) approved for internal connections and Internet access for FY
1999, shows that the SMLS Assistant Treasurer and E-rate Coordinator certified that
approval had been obtained for the technology plan from “New York City Board of
Education”. The New York City Board of Education is not authorized by SLD to
approve E-rate technology plans. For FY 2000, SMLS filed the FCC Form 486 for
Internet access on December 5, 2000 and certified that the technology plan was
approved by “The State Education Dept/University of the State of N.Y.” SMLS filed
its technology plan on April 20, 2001 with the New York State Education Department
(NYSED) Office of Technology Policy, a qualified technology plan approver. The plan
was approved on May 3, 2001, two months before the end of FY 2000. Based on the
SLD guidelines SMLS was qualified to receive funding for Internet access for May
though June 2001 only.

Title 47 CFR 54.504(b)(2)(vii), states that to ensure schools and libraries are prepared
to use the requested services effectively under the E-rate program, applicants must
certify that their requests are based on approved technology plans. Instructions to Form
486 requires that the beneficiary requesting funds for internal connections or Internet
access certify that it has a technology plan approved by an authorized approver. SLD
relied on SMLS certifications that it had an approved technology plan to effectively use
the internal connections and Internet access services on Form 486. Consequently, SLD
disbursed funds on these funding requests in the amount $118,449 for FY 1999 and

                                            5
Report on Audit of the E-rate Program at St. Matthew Lutheran School


$18,144 for FY 2000. This finding by itself indicates that the $136,593 was
inappropriately distributed and should be recovered.

Finding 2 of 10 - Unacceptable Alternative Mechanism Used to Support the E-rate
Discount Percentage.

SMLS used an unacceptable alternative mechanism to support the calculated E-rate
discount rate certified on Block 4 of Form 471 Services Ordered for FY 1999. This
mechanism was based on a study by population size and estimated income data through
November 2000 for the zip code of SMLS’ location. The study was prepared by
National Decision Systems, a private consultant that provides testimonial data in court
cases. SLD deems this method of projecting the number of low- income student
eligibility an unacceptable alternative mechanism. The FCC in the Universal Service
Order CC (Common Carrier) Docket 96-45 (FCC 97-157) stated that the national
school lunch program (NSLP) based on family income is a more accurate measure of a
school’s level of need than a model that considers general community income. It
should be noted that for FY 2000 the SLD Program Integrity Assurance (PIA) review
resulted in adjusting SMLS’ discount rate from 90% to 80%.

Because SMLS is small school, the NYC-BOE Division of Food Services and
Transportation handles the food administration at SMLS. This NYC-BOE department
imposes the same eligibility requirement for free and reduced lunch under NSLP. In
addition, it performs audits of the school’s reported data including student applications.
Based on inquiries made, NYC-BOE provided 10 months of eligible and actual data for
free and reduced lunch for the school year 1999-2000. Using this data we calculated
the percentage of eligible for free or reduced lunch by dividing 109 (the average
number of students eligible for free or reduced lunch) by 149 (the average total number
students registered) and arrived at 73% (109/149) eligible for free/reduced lunch. This
73% eligibility equates to an 80% E-Rate Urban Discount Matrix in accordance with
Title 47 CFR 54.505(c). Because SMLS failed to provide adequate support for the
calculation of its E-rate discount reported on Form 471 Services Ordered Form, we
computed the over-reimbursement adjustment using an 80% E-rate discount for FY
1999 in lieu of the 90% claimed by SMLS. SLD funded schools and libraries at the
80% discount level for FY 1999. Using the adjusted 80% discount rate, the disbursed
amount should have been $105,288 ($131,610 x 80%), instead of $118,449 ($131,610 x
90%). This results in an over-payment of $13,161 ($118,449 - $105,288) for FY 1999.

Finding 3 of 10 - SMLS Failed to Budget the Non-discounted Portion of E-rate
Services and Products Costs.

Our review of the SMLS budget for the fiscal year July 1999 to June 2000 revealed no
funding for the 10% non-discounted portion of E-rate associated with internal
connections and Internet access for FY 1999 as certified on Form 470 (Description of
Services Requested and Certification Form). Section 54.504(b)(2)(v) and Form 470
require the school to certify that it has budgeted all of the necessary funding in the

                                            6
Report on Audit of the E-rate Program at St. Matthew Lutheran School


current funding year to pay for the non-discount portion of requested E-rate services as
well as any necessary hardware or software, and to undertake the necessary staff
training required to use the services effectively. Furthermore, during our physical
inspection, we observed that SMLS under-utilized the E-rate equipment installed in FY
1999. As discussed in findings 6 and 10, we observed 5 hubs that were still in their
original boxes. Moreover, the computers in many of the classrooms were obsolete for
LAN and Internet access making the majority of E-rate equipment and wiring
underutilized. The inability to effectively utilize the assets purchased, coupled with
SMLS’ failure to budget and pay for its share of pre-discount E-rate and support costs
(Finding 4), illustrates systemic noncompliance with program rules and requirements.

Finding 4 of 10 - SMLS Failed to Pay the Non-discounted Portion of E-rate Costs for
Internal Connections and Internet Access.

Our review of the SMLS Income Statement for the period July 1999 to June 2000,
provided on December 3, 2001, revealed that no amounts were shown that represented
the 10% non-discounted portion of E-rate associated with internal connections and
Internet access for FY 1999. After we discussed this issue with SMLS’ representative,
the school provided a restated Income Statement for the same period that reflected an
expense for the non-discounted portion amount of $13,161 (10% x the pre-discount
amount $131,610). An inquiry of the service provider revealed that SMLS has made no
payment on this outstanding amount as of January 28, 2002.

The FCC, in Universal Service Order CC Docket 96-45 (FCC97-157,) stated that
requiring applicants to pay their share would ensure efficiency and accountability in the
program. Paragraph 493 of the Order states:

    Requiring schools and libraries to pay a share of the cost should encourage them to
    avoid unnecessary and wasteful expenditures because they will be unlikely to
    commit their own funds for purchases they cannot use effectively. A percentage
    discount also encourages schools and libraries to seek the best pre-discount price
    and to make informed, knowledgeable choices among their options, thereby
    building in effective fiscal constraints on the account fund.

SMLS’ failure to account and pay for its share of the non-discounted portion of E-rate
services as certified on Form 471 Service Ordered and Certification Form, Block 6,
Item 22, is not in compliance with program rules and requirements.

Finding 5 of 10 - The Service Provider, Connect 2, Billed for T-1 Internet Access
Service but Provided Less Functional ISDN Service.

Using Verizon Communications Inc.’s (Verizon d/b/a Bell Atlantic) customer billing
records, it was determined that SMLS had ISDN service only beginning on January 1,
2000 to May 14, 2001 (the disconnect date). T-1 service was not provided. However,
for FY 1999, the service provider, Connect 2, was reimbursed by SLD $18,468 for T-1

                                            7
Report on Audit of the E-rate Program at St. Matthew Lutheran School


service for Internet access based on SMLS’ approved Form 471 funding request for a
T-1 line. This amount included $1,836 ($2,040 x 90%) for the installation of a full T-1
line and a local loop line, and $16,632 ($18,480 x 90%) for 12 months of recurring
service charges for a full T-1 line and local loop. In addition, for FY 2000 SLD
disbursed to the service provider, Connect 2, $18,144 ($22,680 x 80%) for T-1 service
representing 12 months of recurring service for Internet access.

We determined that the service provider, Connect 2, was over paid $30,642 for monthly
recurring charges for ISDN service for Internet access billed at rates for a full T-1 service
during FY 1999 and FY 2000. This amount consisted of $15,129 for FY 1999 and
$15,313 for FY 2000. The calculation of these amounts is too voluminous for inclusion
in this report, but can be made available upon request.

On the FCC Form 473 (Service Provider Certification Form), the service provider
certifies that charges reflected on the FCC Form 474 (Service Provider Invoice Form)
will be based on bills or invoices billed to the beneficiary. Moreover, instructions to
Form 474 require that the service provider has to provide the products and services and
to bill the school or library for the non-discounted portion prior to submitting a FCC
Form 474 to USAC/SLD. In addition, the FCC Rules in Sec. 54.507 (b) states that a
funding year for purposes of the schools and libraries cap shall be the period July 1
through June 30; and Section 54.507(e) states that if schools and libraries enter into
long term contracts for eligible services, the Administrator (USAC/SLD) shall only
commit funds to cover the pro-rated portion of such a long term contract scheduled to
be delivered during the funding year for which universal service support is sought.
Connect 2 over-billed SLD for the ISDN services based on rates for T-1 services for
Internet access for FY 1999 and FY 2000 and was not in compliance with program
rules and regulations.

Finding 6 of 10 - Unauthorized Product Substitutions Resulted in a Less Functional
System and Payment for Equipment That Was Not Utilized.

Our physical inspection of the internal connections equipment units installed at SMLS
found that the actual equipment units observed differed from those equipment units
listed on the approved FCC Form 471(Services Ordered and Certification Form) Item
17 attachment (quote/contract). SLD approved and disbursed funds based on the
approved Form 471 funding request numbers. Using the equipment list from the
approved Form 471, we were not able to locate some of the listed equipment units. The
service provider provided us with a revised contract/quote list by equipment units and
pricing, and informed us that SLD had approved the product substitutions, however,
they were unable to provide any documentation to support this statement. In response
to our inquiries, SLD informed us it has no record of these substitutions and
consequently, no approval letters were issued by SLD to SMLS and Connect 2.
Because the amounts invoiced by the service provider on the FCC Form 474 (Service
Provider Invoice Form) were submitted as line items in the aggregate by funding
request numbers (FRNs) without any breakdowns by unit/price, SLD had no knowledge


                                             8
Report on Audit of the E-rate Program at St. Matthew Lutheran School


of any product substitutions and relied on the original service/equipment list attached to
Item 17 of the FCC Form 471(Services Ordered and Certification Form.) and approved
the disbursement to the extent that the funds requested did not exceed the committed
FRN amounts. Although the overall cost remained the same, the approved original list
had 26 equipment units whereas the revised equipment list has 12 units as observed; a
difference of 14 units. In order for the total price to remain the same as the approved
original contract, the service provider increased the wiring costs by $13,000 in the
revised contract. We believe the wiring charges should have been reduced because the
installation of some of the equipment and cabling in various classrooms was not done;
however, we are unable to quantify the cost impact of this substitution.

The FCC in DA 01-387, released February 14, 2001, allowed for product/service
substitutions and established the following conditions:

         The substituted services or products have the same functionality as the
          services or products contained in the original proposal.

         The substitution does not result in an increase in price.

         The substitution does not violate any contract provisions or state or local
          procurement laws.

         The substitution does not result in an increase in the percentage of ineligible
          services or functions.

         The substitution is consistent with the establishing Form 470 posting and
          original RFP, if any.
         The applicant should make the request for product substitution and obtain
          SLD approval.

While this order was not effective during the period under audit, it provides a good
synopsis of matters that should be considered for contractual changes involving the
stewardship of federal funds. SMLS appears to have met some of these conditions
stated above for the substitutions; however, it failed to make a request for the
substitution and obtain SLD approval. Additionally, given the decrease in the capacity
and scope of the system installed as compared to the approved system, we are of the
opinion that there was a significant reduction in functionality due to the unauthorized
changes.

Of the 12 units on the premises, we observed 5 hub units that were not installed and
still in their original boxes. The pre-discount price of the delivered and uninstalled 5
hub units is $5,595 (4 @ $1,039 and 1@ $1,439). The remaining 7 units consisted of
hubs, a router, a Dell server, a PBX and an instant Internet box. The Bay Networks


                                            9
Report on Audit of the E-rate Program at St. Matthew Lutheran School


Instant Networks Internet Box was not cabled to any working unit and was not being
used. During a follow-up inspection this unit, with a pre-discount price of $3,995, was
no longer where it had previously been. SMLS’ representative informed us that it was
the property of Connect 2 and the unit was picked-up for repair. However, this
equipment was paid for with E-rate funds and it is not the property of the service
provider. The total amount of hardware paid for and not connected, based on the 90%
discount is $8,631 ($5,595 + $3,995 = $9,590 x 90%).

Finding 7 of 10 - The Service Provider Billed for Recurring Maintenance Services That Were
Not Provided.

For FY 1999, Connect 2 billed SLD for the full 12-month period for maintenance of the
local area network (LAN) and PBX phone system installed at SMLS. We found that the
service provider should have prorated the maintenance charges to be commensurate
with the time period that these systems became operational. We were informed by
SMLS that the installation of internal connections was started in the November 1999 time
frame and not operational until December 1999. Connect 2 should have prorated the
maintenance charges for these internal connections. Consequently, Connect 2 has billed
SLD $3,205 for maintenance services not provided in FY 1999. This amount was
calculated by applying a 7/12 (the portion of the funding year that the system was
operational) ratio to the contract pre-discount price for maintenance and then applying the
90% discount to the over-billed amount.

On the FCC Form 473 (Service Provider Certification Form), the service provider
certifies that charges reflected on the FCC Form 474 (Service Provider Invoice Form)
will be based on bills or invoices billed to the beneficiary. Moreover, instructions to
Form 474 require that the service provider provide the products and services and bill
the school or library prior to submitting a FCC Form 474 to USAC/SLD. In addition,
the FCC Rules in Title 47 CFR 54.507 (b) states that a funding year for purposes of the
schools and libraries cap shall be the period July 1 through June 30; and Section
54.507(e) states that if schools and libraries enter into long term contracts for eligible
services, the Administrator (USAC/SLD) shall only commit funds to cover the pro rata
portion of such a long term contract scheduled to be delivered during the funding year
for which universal service support is sought. Connect 2 over-billed SLD for the
maintenance service not provided to SMLS during the first 5 months of FY 1999 and
therefore was not in compliance with program rules and requirements.

Finding 8 of 10 - Contracts with the Service Provider Were Signed Prior to the Contract
Allowable Date.

SMLS’ Form 470 (Description of Services Requested and Certification Form) was
posted on March 5, 1999 on the SLD website. Therefore, the allowable contract date
would not be earlier than April 2, 1999. Form 471 (Services Ordered and Certification
Form) was certified by SMLS on April 2, 1999 and shows a contract awarded to
Connect 2 Internet Networks, Inc (Connect 2) on April 3, 1999. However, the two

                                            10
Report on Audit of the E-rate Program at St. Matthew Lutheran School


contracts/quotes for internal connections and Internet access attached to the Form 471
were signed by both SMLS and Connect 2 on March 31, 1999 and April 1, 1999.
These contract dates are before the contract allowable date of April 2, 1999, contrary to
the mandatory 28-day waiting period pursuant to Title 47 CFR 54.504(b)(4). This
finding by itself indicates that the $136,593 was inappropriately distributed and should
be recovered.

Finding 9 of 10 - Undocumented Competitive Bidding Process.

SMLS was not able to provide any evidence of a competitive bidding process. No
copies of bids received and documentation supporting the award decision for services
requested on its Form 470 for FY 1999 were provided. SMLS’ representative claimed
that the school was heavily in debt and consequently, various service providers
contacted the school but did not want to enter into contract with the applicant.

Title 47 CFR 54.504, Requests for Service (a) competitive bidding requirement,
provides that all eligible schools, libraries and consortia including those entities shall
participate in a competitive bidding process, pursuant to the requirement established in
this subpart, but this requirement will not preempt state or local competitive bidding
requirements. Section 54.511, Ordering Service, (a) Selecting a provider of eligible
services, provides that in selecting a provider of eligible services, schools, libraries and
consortia including any of those entities shall carefully consider all bids submitted and
may consider relevant factors other than the pre-discounted prices submitted by
providers. SMLS was not able to provide documents that would support the soundness
of their management of the E-rate funding or compliance with Title 47 CFR 54.504 and
511.

Management response: We conclude that factual support is not presented in the
report to determine whether finding 9 (undocumented competitive bidding process) is a
rule violation. Our rules require beneficiaries to keep the same kinds of records that
they keep for other procurements. The audit process did not review or analyze the
record retention policy that pertains to SMLS, and thus the failure of SMLS to have
records has not demonstrated to be a rule violation based on the facts set forth in the
report.

Auditor comments: WCB makes an inaccurate assumption that we did not review
SMLS’ record retention policy. Our audit found that SMLS does not have a record
retention policy. However, we do not consider the lack of a policy to preclude a
finding that inadequate supporting documentation was provided in response to audit
inquiries. We do not cite SMLS for noncompliance with program rules in finding 9, we
state that they were unable to support their compliance. OIG is of the opinion that, as
numerous prior audits of the E-rate program have disclosed, a lack of supporting
documentation is a serious issue and we will cite that lack as an audit finding when it is
disclosed in the course of an audit.



                                            11
Report on Audit of the E-rate Program at St. Matthew Lutheran School


Finding 10 of 10 - The Beneficiary Did Not Have Adequate Resources to Effectively
Utilize the Services Provided.

Section 54.504(b)(1) Requests for Service requires the schools and libraries to certify
that they have funds budgeted and approved to meet their financial obligations to pay
for the “non-discounted” portion of their requested services and to pay for the other
components set out in their technology plan, for each funding year. The certification
requirements are intended to assure that 1) the schools will be able to use the discounts
cost-effectively and 2) to assure accountability that the purchased equipment and
services will be used effectively. Based on interviews of key personnel at SMLS and
inspection of the school facilities and documentation examined, we determined that the
internal connections provided by the service provider were underutilized and not
tailored to the needs and abilities of the school for effective utilization. SMLS lacked
the resources, i.e., computer hardware, and the expertise to effectively use the E-rate
products and services. As discussed in Findings 3 and 6, we observed 5 hubs that were
still their original boxes and that the Internet Box was not working. The computers in
many of the classrooms were obsolete for LAN and Internet access; consequently, the
wiring in-place in most of the classrooms had not been utilized in any way. Moreover,
for FY 2000, SMLS had funding requests for internal connections in the amount of
$219,696 that included 4 additional servers, 8 hubs and wiring deemed to be excessive and
redundant for a school like SMLS in terms of lacking the resources needed to properly use
e-rate services and products. These E-rate eligible items would have been funded and
disbursed if SLD Program Integrity Assurance (PIA) group had not reduced SMLS’ E-rate
discount from 90% to 80%; SLD’s Funding Priority Rules were in effect and funded
schools and libraries up to 81% discount rate for internal connections in FY 2000.

In a Report and Order under CC Docket 96-45 dated June 29, 2001, the Commission
established that non-recurring services (i.e., internal connections) had to be installed by
September 30 after the end of a funding year. While it was issued after the period
under audit, this Report and Order shows the Commission fully intended that internal
connections purchased with E-rate funding be installed at the beneficiary’s facilities.
Further, SMLS did not have asset/inventory records to show make, model, and serial
number for both E-rate equipment and the supporting equipment as required by SLD.
Connect 2 provided an inventory listing of the E-rate equipment by make and serial
number that was used to conduct the physical inspection. While detailed inventory
records are not required by the program rules governing this program, good business
practices dictate an adequate level of asset control, which SMLS did not demonstrate.
This lack of control, coupled with SMLS’ inability to budget and pay for the non-
discounted portion of the E-rate services (Findings 3 and 4), illustrates systemic
noncompliance with program rules and requirements.

Management response: We do not fully concur in the OIG’s analysis in support of
finding 10 (lack of adequate resources to effectively utilize the services provided). FCC
rules require the applicant to demonstrate that it has adequate resources to use the
services requested, but there is no explicit rule that requires beneficiaries to use


                                            12
Report on Audit of the E-rate Program at St. Matthew Lutheran School


equipment “effectively” (emphasis added). We concur with the OIG that services
must be utilized, but note that there is no current standard in the Commission’s rules or
Orders for determining whether services are excessive or “under utilized”.

Auditor comments: In finding 10, we identify numerous examples where SMLS did
not have sufficient resources to effectively utilize the funded equipment. If our issue
with system utilization were based on technical diagnostics on system performance or
analysis of peak versus non-peak system usage, we would agree that the current
regulatory framework may not support this audit finding. However, SMLS represents
an egregious and blatant example of underutilization, where the standard of utilization
is whether funded assets are installed or are still sitting in their original packaging or
whether end-user equipment (such as desktop computers) is available to connect to
funded wiring or is not. In cases such as SMLS, OIG is of the opinion that the level of
underutilization is so severe as to represent an unacceptable waste of USF assets.

RECOMMENDATIONS

Recommendation 1 of 3 – We recommend that the Wireline Competition Bureau direct
the Universal Service Administrative Company to recover the full amount of $136,593
disbursed on behalf of SMLS in funding years 1999 and 2000.

Management response: We concur with the OIG that full recovery of funds – a total
of $136,593 – is warranted.

Recommendation 2 of 3 - We recommend that the Wireline Competition Bureau take
steps to ensure that funding requests are adequately reviewed in accordance with
existing program rules and implementing procedures to ensure that funding requests
associated with such systemic noncompliance with program rules and regulations are
not approved.

Management response: Concur

Recommendation 3 of 3 - We recommend that the Wireline Competition Bureau review
those program rules and implementing procedures governing the areas of
noncompliance cited in this report to ensure that those program rules and implementing
procedures are adequate to protect the interests of the fund.

Management response: Concur




                                            13
Report on Audit of the E-rate Program at St. Matthew Lutheran School




         FEDERAL COMMUNICATIONS
               COMMISSION

            OFFICE OF INSPECTOR GENERAL




               Report on Audit of the E-Rate Program at
                     St. Matthew Lutheran School

                         Report No. 02-AUD-02-04-07



                 APPENDIX – Management Response




                                         1
